No. 20-1530
IN THE SUPREME COURT OF THE UNITED STATES
STATE OF WEST VIRGINIA, ET AL.,
Petitioners,
v.
U.S. ENVIRONMENTAL PROTECTION AGENCY AND
MICHAEL REGAN, ADMINISTRATOR OF THE
U.S. ENVIRONMENTAL PROTECTION AGENCY,
Respondents.
On Petition For A Writ of Certiorari
to the United States Court of Appeals
for the District of Columbia Circuit
CERTIFICATE OF SERVICE

In accordance with Supreme Court Rule 29.5 and the April 15, 2020 Order of
this Court, I hereby certify that on June 3, 2021, the Response of America’s Power in
Support of Certiorari in the above-captioned case was served electronically on all
parties required, with paper copies provided by commercial common carrier upon
request:
Elizabeth B. Prelogar
Acting Solicitor General
DEPARTMENT OF JUSTICE
950 Pennsylvania Avenue, NW
Washington, D.C. 20530-0001
(202) 514-2217
supremectbriefs@usdoj.gov

Benjamin Carlisle
Meghan Greenfield
U.S. DEPARTMENT OF JUSTICE
ENVIRONMENT AND NATURAL
RESOURCES DIVISION
PO Box 7611, Ben Franklin Station
Washington, DC 20044-7415
(202) 514-9771
1

Counsel for U.S. Environmental Protection benjamin.carlisle@usdoj.gov
Agency and Michael Regan, Administrator meghan.greenfield@usdoj.gov
of the U.S. Environmental Protection
Agency
Counsel for U.S. Environmental
Protection Agency and Michael Regan,
Administrator of the U.S.
Environmental Protection Agency
Intervenors and Petitioners:
Scott Allen Keller
Jeremy Evan Maltz
BAKER BOTTS LLP
700 K Street, NW
Washington, DC 20001-5692
(202) 639-7700
scott.keller@bakerbotts.com
jeremy.maltz@bakerbotts.com

David Michael Flannery
Amy M. Smith
STEPTOE & JOHNSON PLLC
P.O. Box 1588
Charleston, WV
25326 (304) 353-8000
dave.flannery@steptoe-johnson.com
Amy.Smith@steptoe-johnson.com

Counsel for AEP Generating Company,
Counsel for Chamber of Commerce of
AEP Generation Resources Inc.,
the United States of America
Appalachian Power Company, Indiana
Michigan Power Company, Kentucky Power
Company, Public Service Company of
Oklahoma, Southwestern Electric Power
Company, Wheeling Power Company,
Indiana Energy Association, and Indiana
Utility Group
John David Lazzaretti
John A. Rego
SQUIRE PATTON BOGGS (US) LLP
4900 Key Tower
127 Public Square
Cleveland, OH 44114-1304
(216) 479-8350
john.lazzaretti@squirepb.com
jrego@beneschlaw.com

Carroll Wade McGuffey, III
TROUTMAN PEPPER HAMILTON SANDERS
LLP
600 Peachtree Street, NE
Suite 3000
Atlanta, GA 30308-2216
(404) 885-3698
mack.mcguffey@troutman.com
Counsel for National Mining
Association

Counsel for Murray Energy Corporation

2

Mark W. DeLaquil
BAKER & HOSTETLER LLP
Washington Square
1050 Connecticut Avenue, NW
Suite 1100
Washington, DC 20036-5304
(202) 861-1500
mdelaquil@bakerlaw.com

Thomas Allen Lorenzen
CROWELL & MORING LLP
1001 Pennsylvania Avenue, NW
Washington, DC 20004-2595
(202) 624-2789
tlorenzen@crowell.com
Counsel for National Rural Electric
Cooperative Association

Counsel for Westmoreland Mining
Holdings LLC

Emily Church Schilling
HOLLAND & HART, LLP
901 K Street, NW, Suite 850
Washington, DC 20001
(202) 654-6922
ecschilling@hollandhart.com

Joseph Anthony Sclafani
OFFICE OF MISSISSIPPI GOVERNOR PHIL
BRYANT
PO Box 139
Jackson, MS 39205
(601) 576-2807
Joseph.Sclafani@governor.ms.gov

Counsel for Basin Electric Power
Cooperative

Counsel for Tate Reeves, Governor of
the State of Mississippi

Angela Jean Levin
TROUTMAN PEPPER HAMILTON SANDERS
LLP
Three Embarcadero Center, Suite 800
San Francisco, CA 94111
(415) 477-5700
angela.levin@troutmansanders.com

William Daniel Booth
MICHAEL BEST & FRIEDRICH, LLP
1000 Maine Avenue, SW, Suite 400
Washington, DC 20024
(202) 747-9658
wdbooth@michaelbest.com
Counsel for Mississippi Public Service
Commission

Counsel for Georgia Power Company

3

Yaakov M. Roth
Stephen J. Petrany
JONES DAY
51 Louisiana Ave., NW
Washington, D.C. 20001
(202) 879-3939
yroth@jonesday.com

Michael A. Zody
Jacob Santini
PARSONS BEHLE & LATIMER
201 South Main Street
Suite 1800
Salt Lake City, UT 84111
(801) 532-1234
mzody@parsonsbehle.com
jsantini@parsonsbehle.com

Counsel for North American Coal
Corporation

Counsel for Nevada Gold Mines LLC and
Nevada Gold Energy LLC
C. Grady Moore, III
BALCH & BINGHAM LLP
1901 6th Avenue North, Suite 1500
Birmingham, AL 35201
(205) 251-8100
gmoore@balch.com

Edmund Gerard LaCour, Jr.
OFFICE OF THE ATTORNEY GENERAL
501 Washington Avenue
Montgomery, AL 36130
(334) 353-2196
elacour@ago.state.al.us

Counsel for Powersouth Energy Cooperative Counsel for State of Alabama
Treg R. Taylor
OFFICE OF THE ATTORNEY GENERAL
1031 West 4th Avenue, Suite 200
Anchorage, AK 99501
(907) 269-5200
ed.sniffen@alaska.gov
attorney.general@alaska.gov

Nicholas J. Bronni
OFFICE OF THE ATTORNEY GENERAL
323 Center Street, Suite 200
Little Rock, AR 72201
(501) 682-6302
nicholas.bronni@arkansasag.gov
Counsel for State of Arkansas

Counsel for State of Alaska
Andrew Pinson
STATE OF GEORGIA DEPARTMENT OF LAW
40 Capitol Square, SW
Atlanta, GA 30334-1300
(404) 458-3409
apinson@law.ga.gov

Thomas M. Fisher
OFFICE OF THE INDIANA ATTORNEY
GENERAL
Indiana Government Center South
302 West Washington Street, 5th Floor
Indianapolis, IN 46204
(317) 234-6843
tom.fisher@atg.in.gov

Counsel for State of Georgia

Counsel for State of Indiana
4

Jeffrey Allyn Chanay
OFFICE OF THE KANSAS ATTORNEY GENERAL
120 SW 10th Avenue, 2nd Floor
Topeka, KS 66612
(785) 296-2215
jeff.chanay@ag.ks.gov

Steven Travis Mayo
OFFICE OF THE ATTORNEY GENERAL
700 Capitol Avenue, Suite 106
Frankfort, KY 40601
(502) 564-2611
travis.mayo@ky.gov

Counsel for State of Kansas

Counsel for State of Kentucky, by and
through Governor Matthew G. Bevin

Elizabeth Baker Murrill
LOUISIANA ATTORNEY GENERAL
PO Box 94005
Baton Rouge, LA 70804
(225) 326-6766
murrille@ag.louisiana.gov

Dean John Sauer
OFFICE OF THE MISSOURI ATTORNEY
GENERAL
PO Box 899
Jefferson City, MO 65102
(573) 751-8807
john.sauer@ago.mo.gov

Counsel for State of Louisiana

Counsel for State of Missouri
Jeremiah Langston
OFFICE OF THE ATTORNEY GENERAL
Justice Building
215 North Sanders
Helena, MT 59620-1401
(406) 444-7008
jeremiah.langston@mt.gov

Justin D. Lavene
OFFICE OF THE ATTORNEY GENERAL
2115 State Capitol
PO Box 98920
Lincoln, NE 68509-8920
(402) 471-2064
justin.lavene@nebraska.gov

Counsel for State of Montana

Counsel for State of Nebraska

Paul Martin Seby
GREENBERG TRAURIG, LLP
1144 15th Street, Suite 3300
Denver, CO 80202
(303) 572-6584
sebyp@gtlaw.com

Benjamin Michael Flowers
OFFICE OF THE ATTORNEY GENERAL
30 East Broad Street, 17th Floor
Columbus, OH 43215-3428
(614) 728-7511
benjamin.flowers@ohioattorneygeneral
.gov

Counsel for State of North Dakota

Counsel for State of Ohio

5

Mithun Mansinghani
OFFICE OF THE ATTORNEY GENERAL
313 N.E. 21st Street
Oklahoma City, OK 73105
(405) 522-4392
mithun.mansinghani@oag.ok.gov

James Emory Smith, Jr.
OFFICE OF THE ATTORNEY GENERAL
PO Box 11549
Columbia, SC 29211
(803) 734-3680
esmith@scag.gov

Counsel for State of Oklahoma

Counsel for State of South Carolina

Steven Robert Blair
OFFICE OF THE ATTORNEY GENERAL
1302 East Highway 14, Suite 1
Pierre, SD 57501-8501
(605) 773-3215
steven.blair@state.sd.us

Judd Edward Stone II
Kyle D. Hawkins
OFFICE OF THE ATTORNEY GENERAL
P.O. Box 12548
Austin, TX 78711-2548
(512) 936-1700
judd.stone@oag.texas.gov
kyle.hawkins@oag.texas.gov

Counsel for State of South Dakota

Counsel for State of Texas
Melissa Ann Holyoak
Parker Douglas
Tyler Richard Green
UTAH STATE CAPITOL COMPLEX
350 North State Street, Suite 230
Salt Lake City, UT 84114-2320
(801) 538-9600
melissaholyoak@agutah.gov
pdouglas@utah.gov
tyler@consovoymccarthy.com

Lindsay S. See
OFFICE OF THE WEST VIRGINIA
ATTORNEY GENERAL
State Capitol Complex
Building 1, Room E-26
Charleston, WV 25305
lindsay.s.see@wvago.gov
(304) 558-2021
Counsel for State of West Virginia

Counsel for State of Utah

6

James P. Duffy
Ann Brewster Weeks
CLEAN AIR TASK FORCE
114 State Street, 6th Floor
Boston, MA 02109
(617) 359-4077
jduffy@catf.us
aweeks@catf.us

James Kaste
OFFICE OF THE ATTORNEY GENERAL
2320 Capitol Avenue
Cheyenne, WY 82002
(307) 777-6946
james.kaste@wyo.gov
Counsel for State of Wyoming

Counsel for American Lung
Association, American Public Health
Association, Appalachian Mountain
Club, Clean Air Council, Clean
Wisconsin, Conservation Law
Foundation, and Minnesota Center for
Environmental Advocacy
Elizabeth Jones
CENTER FOR BIOLOGICAL DIVERSITY
660 S. Figueroa Street, Suite 1000
Los Angeles, CA 90017
(213) 785-5400
ljones@biologicaldiversity.org

Brittany E. Wright
CHESAPEAKE BAY FOUNDATION
6 Herndon Avenue
Annapolis, MD 21403
(443) 482-2077
bwright@cbf.org

Counsel for Center for Biological Diversity

Counsel for Chesapeake Bay
Foundation, Inc.

Kristin Merritt Bronson
CITY AND COUNTY OF DENVER
1437 Bannock Street, Suite 353
Denver, CO 80202
(720) 865-8600
kristin.bronson@denvergov.org

Debra S. Kalish
Tom Carr
CITY ATTORNEY’S OFFICE
1777 Broadway, 2nd Floor
Boulder, CO 80302
(303) 441-3092
kalishd@bouldercolorado.gov
carrt@bouldercolorado.gov

Counsel for City and County of Denver
Colorado

Counsel for City of Boulder

7

Benna Ruth Solomon
CORPORATION COUNSEL OF THE CITY OF
CHICAGO, APPEALS DIVISION
30 North LaSalle Street, Suite 800
Chicago, IL 60602
(312) 744-7764
benna.solomon@cityofchicago.org

Michael James Bostrom
LOS ANGELES CITY ATTORNEY’S OFFICE
AFFIRMATIVE LITIGATION DIVISION
200 N. Spring Street, 14th Floor
Los Angeles, CA 90012
(213) 978-1882
michael.bostrom@lacity.org

Counsel for City of Chicago

Counsel for City of Los Angeles

Christopher Gene King
NEW YORK CITY LAW DEPARTMENT
100 Church Street
New York, NY 10007
(212) 788-1235
cking@law.nyc.gov

Scott Schwarz
City of Philadelphia Law Department
One Parkway Building
1515 Arch Street
Philadelphia, PA 19102-1595
(215) 683-5170
scott.schwarz@phila.gov

Counsel for City of New York

Counsel for City of Philadelphia
Thomas Frank Pepe
PEPE & NEMIRE, LLC
1450 Madruga Avenue, Suite 202
Coral Gables, FL 33146
(305) 667-2564
thomaspepe@pepenemire.com

Christophe Gagnon Courchesne
David S. Frankel
MASSACHUSETTS OFFICE OF THE
ATTORNEY GENERAL
One Ashburton Place
Boston, MA 02108
(617) 963-2423
christophe.courchesne@state.ma.us
david.frankel@mass.gov

Counsel for City of South Miami

Counsel for Commonwealth of
Massachusetts
Aimee Diane Thomson
OFFICE OF THE ATTORNEY GENERAL
1600 Arch Street, Suite 300
Philadelphia, PA 19103
(267) 940-6696
athomson@attorneygeneral.gov

Paul Kugelman, Jr.
OFFICE OF THE ATTORNEY GENERAL
202 North 9th Street
Richmond, VA 23219
(804) 786-3811
pkugelman@oag.state.va.us

Counsel for Commonwealth of
Pennsylvania

Counsel for Commonwealth of Virginia

8

Sean H. Donahue
DONAHUE, GOLDBERG & WEAVER, LLP
1008 Pennsylvania Avenue, SE
Washington, DC 20003
(202) 277-7085
sean@donahuegoldberg.com

Karl A. Racine
Loren L. AliKhan
OFFICE OF THE ATTORNEY GENERAL
400 6th Street, NW, Suite 8100
Washington, DC 20001
(202) 727-3400
Loren.AliKhan@dc.gov

Counsel for Environmental Defense
Fund

Counsel for District of Columbia
Howard Learner
ENVIRONMENTAL LAW & POLICY CENTER
35 E. Wacker Drive, Suite 1600
Chicago, IL 60601
(312) 673-6500
hlearner@elpc.org

Melissa Joy Lynch
David D. Doniger
Natural Resources Defense Council
1152 15th Street, NW, Suite 300
Washington, DC 20005
(202) 717-8296
llynch@nrdc.org
Counsel for Environmental Law and Policy ddoniger@nrdc.org
Center
Counsel for Natural Resources Defense
Council
Timothy Eugene Sullivan
Robert William Byrne
OFFICE OF THE ATTORNEY GENERAL
1515 Clay Street, PO Box 70550
Oakland, CA 94612-0550
(510) 622-4038
timothy.sullivan@doj.ca.gov
Robert.Byrne@doj.ca.gov

Joanne Marie Spalding
Sierra Club
2101 Webster Street, Suite 1300
Oakland, CA 94612
(415) 977-5725
joanne.spalding@sierraclub.org
Counsel for Sierra Club

Counsel for State of California
Eric Olson
OFFICE OF THE ATTORNEY GENERAL
1300 Broadway
Denver, CO 80203
(720) 508-6548
eric.olson@coag.gov

Scott Norman Koschwitz
Matthew Ivan Levine
OFFICE OF THE ATTORNEY GENERAL
165 Capitol Avenue
Hartford, CT 06106
(860) 808-5250
scott.koschwitz@ct.gov
matthew.levine@ct.gov

Counsel for State of Colorado

Counsel for State of Connecticut
9

William F. Cooper
STATE OF HAWAII DEPARTMENT OF THE
ATTORNEY GENERAL
425 Queen Street
Honolulu, HI 96813
(808) 586-1282
Bill.F.Cooper@Hawaii.gov

Valerie Melissa Edge
DELAWARE DEPARTMENT OF JUSTICE
102 West Water Street
Dover, DE 19904
(302) 257-3219
valerie.edge@delaware.gov
Counsel for State of Delaware

Counsel for State of Hawaii
Daniel Isaac Rottenberg
OFFICE OF THE ATTORNEY GENERAL,
ENVIRONMENTAL BUREAU
69 West Washington Street, Suite 1800
Chicago, IL 60602
(312) 814-3816
drottenberg@atg.state.il.us

Laura Jensen
OFFICE OF THE ATTORNEY GENERAL
6 State House Station
Augusta, ME 04333-0006
(207) 626-8868
laura.jensen@maine.gov
Counsel for State of Maine

Counsel for State of Illinois
John B. Howard, Jr.
Joshua Segal
OFFICE OF THE ATTORNEY GENERAL
200 St. Paul Place
Baltimore, MD 21202-2021
(410) 576-6970
jbhoward@oag.state.md.us
jsegal@oag.state.md.us

Gillian E. Wener
MICHIGAN DEPARTMENT OF ATTORNEY
GENERAL
P.O. Box 30755
Lansing, MI 48909
(517) 335-7664
wenerg@michigan.gov

Counsel for State of Maryland

Counsel for State of Michigan and the
People of the State of Michigan

Peter Surdo
OFFICE OF THE ATTORNEY GENERAL
Town Square Tower
445 Minnesota Street
St. Paul, MN 55101-2127
(651) 757-1061
peter.surdo@ag.state.mn.us

Heidi Parry Stern
OFFICE OF THE ATTORNEY GENERAL
555 East Washington Avenue
Suite 3100
Las Vegas, NV 89101
(702) 486-3594
hstern@ag.nv.gov

Counsel for State of Minnesota

Counsel for State of Nevada

10

Anne Minard
OFFICE OF THE ATTORNEY GENERAL
Villagra Building
408 Galisteo Street
Santa Fe, NM 87504
(505) 490-4045
aminard@nmag.gov

Lisa Jo Morelli
OFFICE OF THE ATTORNEY GENERAL
PO Box 112
Trenton, NJ 08625-0112
(609) 633-8713
lisa.morelli@dol.lps.state.nj.us
Counsel for State of New Jersey

Counsel for State of New Mexico
Michael J. Myers
Brian Murray Lusignan
Steven Wu
OFFICE OF THE ATTORNEY GENERAL
The Capitol
Albany, NY 12224-0341
(518) 776-2382
michael.myers@ag.ny.gov
Brian.Lusignan@ag.ny.gov
steven.wu@ag.ny.gov

Asher Paris Spiller
OFFICE OF THE ATTORNEY GENERAL
PO Box 629
Raleigh, NC 27602
(919) 716-6050
aspiller@ncdoj.gov
Counsel for State of North Carolina

Counsel for State of New York
Paul Andrew Garrahan
OREGON DEPARTMENT OF JUSTICE
1515 SW Fifth Avenue, Suite 410
Portland, OR 97201
(971) 673-1943
paul.garrahan@doj.state.or.us

Gregory Stage Schultz
OFFICE OF THE ATTORNEY GENERAL
150 South Main Street
Providence, RI 02903
(401) 274-4400
gschultz@riag.ri.gov

Counsel for State of Oregon

Counsel for State of Rhode Island

Nicholas Frank Persampieriz
OFFICE OF THE ATTORNEY GENERAL
109 State Street
Montpelier, VT 05609-1001
(802) 828-6902
nick.persampieri@vermont.gov

Christopher Huriaux Reitz
Emily C. Nelson
OFFICE OF THE ATTORNEY GENERAL
PO Box 40117
Olympia, WA 98504-0117
(360) 586-4614
chris.reitz@atg.wa.gov
emily.nelson@atg.wa.gov

Counsel for State of Vermont

Counsel for State of Washington
11

Eugene Marc Trisko
LAW OFFICES OF EUGENE M. TRISKO
PO Box 330133
Atlantic Beach, FL 32233
(304) 258-1977
emtrisko7@gmail.com

Gabe Johnson-Karp
WISCONSIN DEPARTMENT OF JUSTICE
17 West Main Street
PO Box 7857
Madison, WI 53707-7857
(608) 267-8904
johnsonkarpg@doj.state.wi.us

Counsel for International Brotherhood
of Boilermakers, Iron Ship Builders,
Blacksmiths, Forgers and Helpers,
AFL- CIO, International Brotherhood
of Electrical Workers, AFL-CIO, and
United Mine Workers of America, AFLCIO

Counsel for State of Wisconsin

Theodore Hadzi-Antich
TEXAS PUBLIC POLICY FOUNDATION
901 Congress Avenue
Austin, TX 78701
(512) 472-2700
tha@texaspolicy.com

David Michael Williamson
WILLIAMSON LAW & POLICY
1850 M Street NW, Suite 840
Washington, DC 20036
(202) 256-6155
maxwilliamson@williamsonlawpolicy.c
om

Counsel for Robinson Enterprises, Inc.,
Nuckles Oil Company, Inc., doing business Counsel for Biogenic CO2 Coalition
as Merit Oil Company, Construction
Industry Air Quality Coalition, Liberty
Packing Company, LLC, Dalton Trucking,
Inc., Norman R. Brown, Joanne Brown,
Competitive Enterprise Institute, Texas
Public Policy Foundation
Jeffery Scott Dennis
ADVANCED ENERGY ECONOMY
1000 Vermont Avenue, NW
Suite 300
Washington, DC 20005
(202) 380-1950
jdennis@aee.net

Eugene Grace
AMERICAN CLEAN POWER ASSOCIATION
1501 M Street, NW
Washington, DC 20005
(202) 383-2500
ggrace@awea.org
Counsel for American Clean Power
Association

Counsel for Advanced Energy Economy

12

Kevin James Poloncarz
COVINGTON & BURLING LLP
Salesforce Tower
415 Mission Street, Suite 5400
San Francisco, CA 94105-2533
(415) 591-6000
kpoloncarz@cov.com

Richard Umoff
SOLAR ENERGY INDUSTRIES ASSOCIATION
60014th Street, NW, Suite 400
Washington, DC 20005
(202) 556-2877
rumoff@seia.org
Counsel for Solar Energy Industries
Association

Counsel for Consolidated Edison, Inc.,
Exelon Corporation, National Grid
USA, New York Power Authority,
Power Companies Climate Coalition,
Public Service Enterprise Group
Incorporated, and Sacramento
Municipal Utility District

I declare under penalty of perjury
foregoing is true and correct.
y that the fore

Date: June 3, 2021

ELBERT LIN
Counsel of Record
HUNTON ANDREWS KURTH LLP
951 East Byrd Street, East Tower
Richmond, Virginia 23219
elin@HuntonAK.com
(804) 788-8200
Counsel for Respondent America’s Power

13

